<html>
<title> - OPEN FORUM ON HUMAN RIGHTS ISSUES</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]



 
                   OPEN FORUM ON HUMAN RIGHTS ISSUES
=======================================================================

                               ROUNDTABLE

                               before the

              CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             AUGUST 5, 2002

                               __________

 Printed for the use of the Congressional-Executive Commission on China


         Available via the World Wide Web: http://www.cecc.gov




                       U. S. GOVERNMENT PRINTING OFFICE
81-645                          WASHINGTON : 2002
___________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001





              CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

                    LEGISLATIVE BRANCH COMMISSIONERS

Senate

                                     House

MAX BAUCUS, Montana, Chairman        DOUG BEREUTER, Nebraska, Co-
CARL LEVIN, Michigan                 Chairman
DIANNE FEINSTEIN, California         JIM LEACH, Iowa
BYRON DORGAN, North Dakota           DAVID DREIER, California
EVAN BAYH, Indiana                   FRANK WOLF, Virginia
CHUCK HAGEL, Nebraska                JOE PITTS, Pennsylvania
BOB SMITH, New Hampshire             SANDER LEVIN, Michigan
SAM BROWNBACK, Kansas                MARCY KAPTUR, Ohio
TIM HUTCHINSON, Arkansas             SHERROD BROWN, Ohio
                                     JIM DAVIS, Florida

                     EXECUTIVE BRANCH COMMISSIONERS

                 PAULA DOBRIANSKY, Department of State
                 GRANT ALDONAS, Department of Commerce
                D. CAMERON FINDLAY, Department of Labor
                   LORNE CRANER, Department of State
                    JAMES KELLY, Department of State

                        Ira Wolf, Staff Director

                   John Foarde, Deputy Staff Director

                                  (ii)






                            C O N T E N T S

                              ----------                              
                                                                   Page

                               STATEMENTS

Togochog, Enhebatu, president, Southern Mongolian Human Rights 
  Information Center, Jackson Heights, NY........................     1
Shea, Christine, group coordinator, Amnesty International, 
  Annapolis, MD..................................................     3
Saydahmat, Sokrat, member, Board of Directors, Uyghur American 
  Association, McLean, VA........................................     5
Wong, Derek, summer intern, Senate Agriculture Committee, 
  student, University of Pennsylvania, Philadelphia, PA..........     6
Zhou, Shiyu, assistant professor, Department of Computer and 
  Information Science, University of Pennsylvania, Philadelphia, 
  PA.............................................................     8
Polias, Kathy, co-director, Uyghur Human Rights Coalition, 
  Washington, DC.................................................    10

                                APPENDIX
                          Prepared Statements

Togochog, Enhebatu...............................................    20
Shea, Christine..................................................    23
Saydahmat, Sokrat................................................    24
Wong, Derek......................................................    25
Zhou, Shiyu......................................................    27

                       Submission for the Record

Purohit, Raj, the Lawyers Committee for Human Rights.............    30


                   OPEN FORUM ON HUMAN RIGHTS ISSUES

                              ----------                              


                         MONDAY, AUGUST 5, 2002

                            Congressional-Executive
                                       Commission on China,
                                                    Washington, DC.
    The roundtable was convened, pursuant to notice, at 2:32 
p.m., in room SD-215, Dirksen Senate Office Building, Ira Wolf 
(Staff Director of the Commission) presiding.
    Also present: John Foarde, Deputy Staff Director of the 
Commission; Matt Tuchow, Office of Representative Levin; Holly 
Vineyard, U.S. Department of Commerce; and Alison Pascale, 
Office of Senator Levin.
    Mr. Wolf. I would like to welcome all of you to this open 
forum, one of the staff-led roundtables held by the 
Congressional-Executive Commission on China.
    This is our second open forum to provide an opportunity for 
any interested person or group to appear on any issue related 
to human rights and the rule of law in China, make a short 
statement, and put their views into the formal record of the 
Commission. So, we are happy and pleased that you have all come 
here today.
    We are happy to receive additional written statements from 
any of you, which will also become part of the formal record.
    Let us start with Mr. Enhebatu Togochog, who is president 
of the Southern Mongolian Human Rights Information Center. 
Please go ahead.

 STATEMENT OF ENHEBATU TOGOCHOG, PRESIDENT, SOUTHERN MONGOLIAN 
      HUMAN RIGHTS INFORMATION CENTER, JACKSON HEIGHTS, NY

    Mr. Togochog. Ladies and gentlemen, my name is Enhebatu 
Togochog, and I am from Inner Mongolia. I am grateful to the 
Commission for giving me this opportunity to talk about Inner 
Mongolian human rights issues.
    Inner Mongolia, home to 4.5 million indigenous Mongolian 
people, was established in 1947. The pattern of repression of 
the Mongols over the past 50-year period has been documented 
elsewhere, so I will restrict my comments to the current human 
rights situation.
    I will bring to the Commission's attention two specific 
cases. The first, concerns two individuals, Mr. Hada and Mr. 
Tegexi, the second, the forceful displacement of Mongolian 
herdsmen from their traditional pastureland.
    The first individual is Mr. Hada, who was the president of 
Southern Mongolian Democratic Alliance. The mission of this 
organization was to promote and preserve Mongolian culture, 
language, and to peacefully find ways to obtain greater 
autonomous rights for ethnic Mongols in the region, as 
guaranteed by the Chinese Constitution.
    However, in 1995 he was arrested by the authorities, and in 
1996 he was sentenced to 15 years in jail for ``separating the 
country and engaging in espionage.'' Currently, Mr. Hada is 
serving his sentence in Inner Mongolia Jail Number 4 at Chifeng 
City.
    According to Mrs. Xinna, wife of Mr. Hada, he was beaten by 
inmates with rubber clubs provided by prison guards, and on two 
occasions a gun was held to his head by a prison official who 
threatened to kill him.
    Mr. Tegexi was the vice president of Southern Mongolian 
Democratic Alliance, and was also arrested at the same time and 
sentenced to 10 years in jail for the same crime. Currently, 
Mr. Tegexi's prison situation and health condition, and even 
the prison location, are unknown.
    The second case concerns the Chinese Government's ongoing 
coercive displacement of Mongolian herding populations. 
According to official Chinese documents, recently the Chinese 
Government has adopted a new policy targeting the Mongolian 
herding population under the pretext of ``giving rest to the 
grassland and recovering the ecosystem.''
    This policy is called ``Environmental Immigration,'' whose 
aim seems to be the relocation of the Mongolian herding 
populations from their native lands to overwhelming Han Chinese 
populated agricultural and urban areas.
    Over the past 2 years, at least 160,000 ethnic Mongolians 
have been forcibly relocated from their pasturelands. The 
Mongolian herders who have already lost their homes, livestock, 
and lands have been relocated with little regard for their 
social, and other needs, nor has appropriate compensation been 
made for their losses.
    Members of the Commission, today, Mongols who struggle to 
maintain and promote their distinct culture continue to be 
subjected to harassment and intimidation. Recent cases of 
individuals arrested for distributing ``separatist'' 
literature, and another arrest for merely wanting to celebrate 
Chinggis Khan's birthday, attest to the continuing pattern of 
repression.
    In addition, since 1998, at least five expatriate Inner 
Mongolians have been refused entry into China and forced to 
return directly from the airports in Beijing and Hong Kong, 
apparently for being associated in one form or another with 
individuals the Chinese Government has blacklisted.
    We also know of six cases of expatriates--five of them are 
United States green card holders and one of them is even a 
United States citizen--who were detained, questioned, and 
monitored by the authorities during their visit to Inner 
Mongolia.
    Let me end by noting that recent releases of Tibetan 
political prisoners indicate that the United States 
Government's dialog with China and international pressure in 
general regarding human rights issues can have some positive 
results.
    I would like to ask the Commission to urge the Chinese 
Government to, first, release Mr. Hada and Mr. Tegexi. Second, 
provide adequate compensation and social service to the 
displaced Mongols and stop the upcoming larger displacement. 
Third, allow expatriates to visit their homeland. Finally, I 
request the Commission to hold a special hearing devoted to 
Inner Mongolian human rights issues. Thank you.
    [The prepared statement of Mr. Togochog appears in the 
appendix.]
    Mr. Wolf. Thank you very much, Mr. Togochog.
    Next is Ms. Christine Shea of Amnesty International.

    STATEMENT OF CHRISTINE SHEA, GROUP COORDINATOR, AMNESTY 
                  INTERNATIONAL, ANNAPOLIS, MD

    Ms. Shea. My name is Chris Shea, and I am the coordinator 
of Amnesty International Group 284, Annapolis, MD.
    Group 284 was formed in 1983. During the last 19 years, we 
have worked on behalf of prisoners from the Soviet Union, South 
Korea, East Germany, and China. We have 100 people on our 
mailing list, and approximately 10 people who attend meetings 
regularly. We meet once a month and have a quarterly 
newsletter.
    I am here to talk about our work on behalf of Mr. Tegexi. 
Mr. Tegexi is a citizen of the Inner Mongolian Autonomous 
Region in China and is currently serving a 10-year prison 
sentence. It stems from his involvement with the Southern 
Mongolian Democratic Alliance.
    Amnesty International considers Mr. Tegexi to be a prisoner 
of conscience, detained solely because of the peaceful exercise 
of his right to freedom of expression and association.
    Following Mr. Tegexi's arrest and sentencing, Amnesty 
International researchers investigated his case. Once they had 
determined that he was a victim of human rights abuses and that 
he had not used or advocated violence, local groups were asked 
to adopt his case. Group 284 agreed to work on Mr. Tegexi's 
behalf. Local groups in the Netherlands, Germany, and Portugal 
have also adopted Mr. Tegexi's case.
    As an Amnesty International group, our concern is not based 
on Mr. Tegexi's beliefs or political affiliation. We believe 
that Mr. Tegexi, like everyone else, has the right to 
peacefully express his beliefs and to associate with others who 
share his beliefs.
    The primary tool that we use in advocating for Mr. Tegexi 
is the personal letter. Our group has written hundreds of 
letters to various government officials since 1997. Each letter 
states that Mr. Tegexi is imprisoned for the peaceful exercise 
of his basic human rights, and asks that he be released from 
prison immediately and unconditionally. Although each letter is 
unique, these two core ideas are always included.
    Members of Amnesty International Group 284 have written 
letters to national and local Chinese Government officials, 
elected representatives in the United States Government, and 
the State Department.
    The case coordinator directs the actions taken on Mr. 
Tegexi's case. Amnesty International provides a support network 
of country experts, and in addition, e-mail information and 
occasional updates from London that help the coordinator 
develop a strategy for each case.
    Letter writing to Chinese Government officials is organized 
so that one or two officials are targeted each month. On a 
national level, we have written to President Jiang Zemin, and 
other officials such as the Vice President, the Premier, the 
Minister of Foreign Affairs, and the Minister of Justice.
    On the local level, we have written to the Chairwoman of 
the Inner Mongolian Government, the Secretary of the Party 
Committee, and the Chief Procurator. Letters have also been 
sent to prison officials and the directors of the prison where 
Mr. Tegexi has been detained.
    Unfortunately, we have never received a reply to any of our 
letters to Chinese officials. However, prisoners who have been 
released from Chinese prisons have reported that such letters 
did seem to have an impact.
    One former prisoner, Wei Jingsheng, said that he believed 
that the letters sent by Amnesty International groups affected 
his treatment in prison. He also said that, although he never 
saw these letters, he did learn of their existence and that 
``the mental inspiration this gave me greatly surpassed any 
small improvement in my living conditions.''
    Another facet of our work on Mr. Tegexi's behalf has 
involved requests for assistance from U.S. Government officials 
and elected representatives. We sent letters and e-mails to 
Presidents Clinton and Bush concerning Mr. Tegexi. These 
letters preceded Presidential visits to China. We also wrote to 
Secretary of State Albright before she traveled to China.
    In each of these letters, we requested that Mr. Tegexi's 
case be brought up during discussions with Chinese officials. 
We have received replies from the White House and from the 
State Department.
    In February 2001, Christopher Sibilla from the State 
Department Office of Bilateral Affairs wrote that they have 
been following closely the case of Mr. Tegexi and that the 
State Department views this case as a source of continuing 
concern. However, we do not know if the case was raised with 
Chinese officials. We would like to find out if the case was 
discussed, and how Chinese officials responded.
    Group 284 also wrote to Senators Paul Sarbanes and Barbara 
Mikulski, and Representatives Wayne Gilchrest and Steny Hoyer. 
We received replies from the offices of the elected officials. 
Senator Sarbanes forwarded our letter to the State Department, 
as did Senator Mikulski. Senator Mikulski also sent a copy of 
our letter to the Chinese Ambassador.
    We have sent occasional letters to Mr. Tegexi in prison. 
Although we do not know if he receives the letters, they will 
let prison officials know that Mr. Tegexi has not been 
forgotten.
    This message that Mr. Tegexi has not been forgotten is the 
essence of our work. Despite the unresponsiveness of Chinese 
officials, we have kept the letters coming. Our hope is that 
these letters will help Mr. Tegexi, and prevent others from 
suffering as Mr. Tegexi has suffered.
    [The prepared statement of Ms. Shea appears in the 
appendix.]
    Mr. Wolf. Thank you very much.
    Next is Mr. Sokrat Saydahmat, who is a member of the Board 
of Directors of the Uyghur American Association. Welcome to you 
today. Please proceed.

  STATEMENT OF SOKRAT SAYDAHMAT, MEMBER, BOARD OF DIRECTORS, 
            UYGHUR AMERICAN ASSOCIATION, McLEAN, VA

    Mr. Saydahmat. My name is Sokrat Saydahmat. Good afternoon, 
Mr. Chairman and members of the Commission, speakers, and 
guests.
    I am here representing the Uyghur American Association and 
to raise two troubling issues that indicate trends away from 
civil society and toward the cultural genocide of the people of 
Eastern Turkestan, also called the Xinjiang Uighur Autonomous 
Region in Chinese.
    Despite the Constitution of the People's Republic of China 
[PRC] and the laws that are supposed to guarantee and protect 
the non-Chinese peoples, new regulations have been enacted that 
ignore their rights and place the Uighur people on the path to 
destruction.
    The first regulation is the recent change to Xinjiang 
University that prohibits the Uighur language in the classroom. 
Identified as needed for improving the standard of education, 
the Chinese Government has extinguished the source of higher 
education the language of a civilization that stretches back to 
the 9th century.
    The Uighur language and script have been used for over a 
thousand years and have documented religious texts of Buddhism, 
Christianity, and Islam, and the rich culture of Central Asian 
Turkic peoples.
    For the Chinese Government to ban higher level instruction 
and thought is insulting to the Uighur people on the grounds of 
``improving education.'' Such a policy change represents the 
beginning of the purposeful destruction of the Uighur language 
and culture. It is a challenge to world civilization.
    The second policy maintains the same goal, banning and 
burning Uighur language books that disagree with today's 
Chinese Government opinion. A total of 330 titles have been 
deemed problematic, and witnesses in Kashgar city have watched 
while thousands of literary and scientific works were burned 
just 2 months ago in June 2002.
    These books have such titles as ``Ancient Uighur 
Craftsmanship,'' and ``A Brief History of Huns and Ancient 
Literature.'' Although the Chinese Government once approved of 
the publication of these books, they are now deemed too 
controversial to read. We believe that the change in policy 
represents another facet of the purposeful destruction of 
Uighur language and culture.
    It should also be noted that another reason given by the 
Chinese Government authorities for ending Uighur language 
instruction at Xinjiang University was a supposed lack of 
textbooks. How can someone publicly burn books on one hand, 
while declaring the cessation of Uighur language instruction 
based on the lack of books?
    We have raised concrete examples reported in the media that 
demonstrate that the Chinese Government violates human and 
civil rights guaranteed under various United Nation 
instruments, as well as the laws of the People's Republic of 
China.
    We would ask for an open, unfettered referendum to 
determine the future of the people of East Turkestan, by the 
people of East Turkestan only.
    The Uighur people, language, and culture are under attack 
and the Uighur people must watch helplessly and alone as the 
Chinese Government authorities continue the devastation.
    We implore the U.S. Government to put teeth into the U.N. 
Commission on Human Rights in Geneva. Please staff and fund the 
effort to raise issues at least as much as the Chinese spends 
to table it.
    Twelve million Uighur people need a friend. We also implore 
the United States Government to create and fund a position of 
Special Coordinator for Human Rights in East Turkestan, much as 
has been created to assist the Tibetan people.
    There are many problems that need to be solved in East 
Turkestan, but we hope that the visibility produced by these 
two suggestions will cause more of the problem to be solved and 
for conditions to improve for our people.
    Thanks for your time and attention to this important 
matter.
    [The prepared statement of Mr. Saydahmat appears in the 
appendix.]
    Mr. Wolf. Thank you very much.
    Next we have Mr. Derek Wong. I am especially pleased that 
Derek is here today, as Derek is going into his senior year at 
the University of Pennsylvania and is working at the Senate 
this summer as an intern at the Senate Agriculture Committee.
    Please, go ahead.

  STATEMENT OF DEREK WONG, SUMMER INTERN, SENATE AGRICULTURE 
 COMMITTEE, STUDENT, UNIVERSITY OF PENNSYLVANIA, PHILADELPHIA, 
                               PA

    Mr. Wong. Thank you.
    I wish to thank the Commission for the opportunity to speak 
at this open forum. Again, my name is Derek Wong, and I am a 
student at the University of Pennsylvania. I am also interning 
on the Hill this summer.
    The purpose of my presentation is to advocate further 
educational and academic exchanges between the United States 
and China, and to discuss the ways in which these exchanges can 
contribute to the promotion of human rights and the rule of 
law.
    During fall 2001, I studied for a semester at the 
prestigious Qinghua University in Beijing. My program was 
unique in that I was able to enroll in classes with Chinese 
students, as opposed to the majority of study-abroad programs 
in China, which limit foreign students to language classes and 
``island programs'' often taught in English.
    While I took a variety of humanities courses in history, 
international relates, law, and moral ideologies, the 
underlying premise of Marxism was evident throughout each of 
these courses, although in varying degrees.
    Having studied in both the United States and China, it is 
clear to me that Americans and Chinese lack understanding of 
each other. Some of my Chinese professors have studied or 
taught in the United States, and this was evident in their 
teaching.
    Other professors lectured with an obvious bias against the 
United States and Western society in general. It was apparent 
that they had little, and many times incorrect, understanding 
of our country.
    In an informal poll I conducted of students at three top 
universities in Beijing, the majority of respondents said they 
base their opinions of the United States primarily on reports 
in the Chinese news media. Most of the students admired 
American affluence and lifestyle, and indicated that, given the 
opportunity, they would want to study in the United States.
    Yet they were also highly critical of President George W. 
Bush and his policies toward China and Taiwan, accusing the 
United States Government of being hegemonic and overly 
aggressive in its foreign policy.
    This dualistic attitude was well illustrated in the Chinese 
reaction to the events of September 11. Immediately after the 
attacks, there was an air of shock, as well as regret for those 
who died in Washington and New York, some of whom were Chinese 
citizens. Chinese President Jiang Zemin was one of the first 
world leaders to offer his condolences and condemn the 
terrorist attacks.
    Yet in the days and weeks that followed, each action by the 
Bush administration was criticized by my professors and fellow 
classmates--not to mention the media--as a subtle mistrust of 
the United States became evident.
    During one lecture, a number of students applauded as a 
photograph was shown of a plane crashing into one of the twin 
towers. I was stunned as I realized that the sentiment among 
some of the students was that the United States got what it 
deserved.
    With China's accession to the World Trade Organization, I 
hope and believe that change is on the horizon. The increasing 
globalization of China presents a golden opportunity for the 
United States to play an active part in promoting human rights 
and the rule of law in China. Many Americans possess skills and 
expertise in law, language training, and other areas that are 
in high demand in China.
    When Chinese students and academics come into contact with 
their American counterparts, there is an exchange of 
information, ideas, and beliefs. The results of these exchanges 
were evident by listening to the varying lectures of China 
professors who had lived in the United States compared to those 
who had not.
    During my semester in China, I had a number of candid 
discussions with classmates about Sino-American relations and 
so-called Western values. These conversations were mutually 
beneficial in helping us gain an understanding of each other's 
culture.
    I got the sense that at least some of my classmates did not 
subscribe to the Marxist ideals that are the basis for 
education in China, but instead have an interest in learning 
about other ideologies, including Western systems of democracy.
    While the United States issues thousands of visas to 
Chinese students each year, many more are turned down for 
various reasons. Clearly, we cannot accept all Chinese students 
who wish to study in the United States, but we can bring 
American education to China, and with it our understanding of 
human rights, liberties, and freedoms.
    One such example is the joint program in Nanjing 
administered by Johns Hopkins University and Nanjing 
University. It offers classes in Mandarin Chinese for Mandarin 
students, and in English for Chinese students, in a variety of 
social sciences.
    Additionally, American students are typically paired with a 
Chinese roommate, allowing for a daily exchange of ideas and 
opinions between these students.
    The fact remains that very few Americans understand China 
and very few Chinese understand the United States. We need to 
send more students, teachers, academics, and legal experts to 
China if we are to grasp the complexity of its culture, as well 
as the implications for future bilateral ties.
    A dramatic increase in the availability of federally funded 
programs or grants would certainly provide additional incentive 
for such standards. I urge this Commission to promote programs 
that encourage academic interaction between the United States 
and China, not only for the benefit of the 1.3 billion people 
in China, but also for students like me who aspire to be 
shapers of Sino-American relations.
    I thank you again for the opportunity to share my 
experiences and thoughts, and will be happy to answer any 
questions.
    [The prepared statement of Mr. Wong appears in the 
appendix.]
    Mr. Wolf. Thank you, Derek.
    Next is Professor Shiyu Zhou, who is also from the 
University of Pennsylvania.
    Please go ahead, Professor.

  STATEMENT OF SHIYU ZHOU, ASSISTANT PROFESSOR, DEPARTMENT OF 
 COMPUTER AND INFORMATION SCIENCE, UNIVERSITY OF PENNSYLVANIA, 
                        PHILADELPHIA, PA

    Mr. Zhou. Thank you for giving me the opportunity to speak 
on the subject of human rights and the rule of law in China.
    Of particular concern right now are what appear to be 
compromised, or even waning, freedoms in Hong Kong, what some 
say might mark the beginning of the end of the democratic rule 
in the PRC's Hong Kong Special Administration Region [SAR].
    It is nothing new that mainland authorities would 
manufacture bogus so-called ``laws'' to justify harsh, 
repressive political measures, or even to apply such laws 
retroactively to punish persons and groups for past actions and 
affiliations. But what is new, is the appearance of such 
tactics in Hong Kong, a region that Beijing promised would 
retain its freewheeling, open way of life under a principle of 
``One Country, Two Systems'' for at least 50 years; that is, 50 
years from the time it first became a part of the PRC in 1997.
    Now, after only 5 years, this promise is waning, or even 
crumbling, at an alarming pace.
    The past year has seen constant debate among Hong Kong's 
ruling elite, led by Chief Executive Tung Chee-hwa, over the 
adoption of so called ``anti-cult'' and anti-subversion laws. 
These laws, analysts and observers note, would give legal 
grounds for Hong Kong to ban and suppress religious and other 
groups deemed unfavorable by Beijing authorities, the most 
notable example being the Falun Gong. These laws, while 
allegedly patterned after France's anti-cult laws, go far 
beyond their European counterparts in both their intention and 
scope.
    As we speak, a second matter in Hong Kong is of perhaps 
even greater immediate concern. Sixteen practitioners of Falun 
Gong are at present being put through a show-trial, officially 
labeled a ``criminal trial,'' for allegedly disrupting social 
order this past March when they supposedly ``obstructed a 
sidewalk'' by meditating and are accused of ``attacking the 
police.'' The location was outside the Chinese--that is PRC--
Government Liaison Office in Hong Kong. Of the 16, fully 4 are 
Swiss nationals. The group was forcefully arrested without any 
warrant by Hong Kong police. However, eyewitness reports and 
video documentation reveal that it was actually the police who 
obstructed the sidewalk and attacked persons. The footage which 
is available online, shows the peaceful meditators in two 
short, orderly rows, taking up a 7-square-meter spot in a 140-
square-meter open area, and being overwhelmed by throngs of 
police, probably several dozen, and choked, gouged in the eyes, 
and jabbed in their pressure points as they are removed to 
police vans.
    What is significant is that the arrests and removal took 
place reportedly under pressure from the Liaison Office; the 
office was irate that Hong Kong citizens and foreign nationals 
would demonstrate outside its premises against human rights 
abuses in the PRC; irate, that is, that they would dare use 
Hong Kong's constitutionally-enshrined freedoms of assembly and 
speech to embarrass the ruling Beijing regime.
    The significance of this show trial cannot be understated. 
CNN recently reported that the trial has ``raised concerns that 
the `one country, two systems' policy is eroding, and that Hong 
Kong is beginning to yield to pressures from the mainland.'' 
What astute observers realize is that pressure from Jiang Zemin 
to restrict Falun Gong from Hong Kong is jeopardizing a once-
proud legacy of freedoms and just legal system. The trial is 
very much a litmus test, a touchstone, if you will, for 
democracy and rule of law in Hong Kong. The very existence of 
this trial marks the negation of rule of law in the Hong Kong 
SAR, and the beginning of the end. Legal analysts say that this 
trial never should have happened to begin with. It marks the 
arrival of the ``rule of Jiang'' and the departure of rule of 
law. This is something Hong Kong cannot afford, and this is 
something the free world and America cannot afford.
    I would like to suggest, in closing, that this situation in 
Hong Kong must assume a much greater importance for United 
States leaders. We have already seen in the past year and a 
half, on two occasions, scores of Americans and citizens of 
other nations being barred from entering Hong Kong due to their 
beliefs--they practiced Falun Gong; we learned, to our horror, 
that they were on a blacklist, presumably assembled by the PRC. 
Now we see a show trial being used to discredit a peaceful 
group of meditators, and second to justify the harsh, 
repressive legislation that is in the works and that will 
appease Jiang and the Beijing authorities. This is rule by 
fiat, or rule by Jiang, manifesting in Hong Kong. This is 
something we need to pay attention to and we need to address, 
with all due seriousness.
    Thank you for your attention.
    [The prepared statement of Mr. Zhou appears in the 
appendix.]
    Mr. Wolf. Thank you very much.
    The last presentation is by Kathy Polias, who is co-
director of the Uyghur Human Rights Coalition.

  STATEMENT OF KATHY POLIAS, CO-DIRECTOR, UYGHUR HUMAN RIGHTS 
                   COALITION, WASHINGTON, DC

    Ms. Polias. First, I would like to sincerely apologize for 
my lateness. I actually came here to talk about the role of 
United States corporations in the Xinjiang Uighur Autonomous 
Region.
    But, first, I would like to say a few words about September 
11 and how it has impacted the Uighurs. As you might know, the 
Chinese Government has used the events of that day to portray 
the Uighurs to the international community as violent 
terrorists, Islamic fundamentalists. They have also used it as 
a justification to intensify their crackdown on the Uighurs and 
to portray it as part of America's war on terrorism.
    Fortunately, the United States Government has expressed to 
the Chinese Government that we do not consider the Uighur 
dissident movement to be a terrorist movement, and we do not 
want the events of September 11 to be used as an excuse to 
oppress innocent people.
    But the crackdown is continuing pretty severely, and we 
would really like to ask Congress to pass a resolution strongly 
condemning what the Chinese Government is doing and how it is 
distorting America's global war on terrorism. We really 
appreciate everything that the United States Government has 
done till now, but more is really needed.
    Second, I would like to talk about what I came here to talk 
about, the role of U.S. corporations in the region. As you 
know, Xinjiang has large oil and gas reserves and many United 
States companies have invested in the region because of that.
    Recently, Exxon-Mobil joined an international consortium 
that is being led by Royal Dutch Shell to assume a 45 percent 
stake in a huge gas pipeline from the Tarim Basin in Xinjiang 
to Shanghai.
    This project is the second largest project in Chinese 
history, after the Three Gorges Dam. It is going to pass 
through 10 provinces. The consortium is forming a joint venture 
agreement with PetroChina, which is one of China's largest oil 
and gas companies.
    The problem is, with past economic development in Xinjiang, 
the Uighurs have not been the ones who have benefited. The 
Chinese Government systematically discriminates against the 
Uighurs in employment in favor of Chinese migrating from 
inland.
    The rate of unemployment among the Uighurs is very high. We 
would like to ask the United States Government's help, or more 
specifically the Congressional-Executive Commission on China, 
to help us in urging Exxon and other United States companies 
that get involved with oil and gas activities in Xinjiang to 
reverse this trend by implementing job training programs for 
Uighurs and by assuring that the majority of the jobs go to the 
local people.
    Exxon and other companies profess a commitment to giving 
back to the communities that they work in, but we are concerned 
that they are going to be pressured by the Chinese Government 
to do otherwise.
    In addition, we would also like them to contribute to 
building infrastructure in Xinjiang, including schools, 
hospitals, and roads.
    That is basically what I wanted to say. I thank you very 
much for the time.
    Mr. Wolf. Thank you very much.
    I will begin with the questions. My first question is to 
Mr. Saydahmat. Regarding the decision at Xinjiang University to 
end instruction in the Uighur language, could you explain, or 
do you know, why the decision was made now rather than several 
years ago? Did something happen to instigate a change in policy 
now?
    Mr. Saydahmat. I was a graduate from Xinjiang University in 
1992, and I was an instructor in the Xinjiang University. I was 
teaching Uighur students in Uighur on western European 
philosophical history. At that time when I was an instructor, 
school officials had already many times talked to me, 
approached me, to teach my subject in Chinese and I rejected 
it.
    The Xinjiang University, to my knowledge, is one of the 
oldest universities, established in 1924. It has tens of 
thousands of Uighurs who have graduated from that university.
    There is already a Medical Institute, Polytechnic 
Institute, Agriculture Institute, and art and law schools that 
have already converted into Chinese teaching. Xinjiang was the 
last university that still continued teaching in Uighur.
    I think the Chinese, after they joined the WTO, already 
feel comfortable with international organizations and they had 
achieved what they wanted, and they had a free hand now. After 
September 11, they had the other support which labeled all 
Uighurs as terrorists, in collusion with the United States and 
all Western countries. That has fueled the fire and prevented 
Uighurs from having higher education, to have education in 
their language.
    So I feel like there is absolutely a trend of distrust and 
cultural genocide. This is a challenge to world civilization in 
which every people group, ethnic people, has for education in 
their own language. This has put the Uighur people on the path 
of destruction.
    Mr. Wolf. Thank you.
    Mr. Togochog, you talked about the Chinese Government's 
threat to the maintenance of traditional culture. What is the 
threat that they see from Mongolian people and Mongolian 
culture?
    Mr. Togochog. The Inner Mongolian Autonomous Region was 
established in 1947 under the Chinese Communist Party's 
instruction. Then after that, during the Cultural Revolution, 
there was a big genocide in Inner Mongolia which is still 
unknown to the world.
    During that 10-year period, according to the Chinese 
official data, there were 700,000 Mongolian people who were 
sent to jail, tortured, and maimed and 162,222 were people 
killed. This is Chinese official data.
    After that, government authorities cracked down on a lot of 
peaceful student movements and civil movements. But because of 
the Chinese Government's policy, the situation in Inner 
Mongolia was really unknown to the world.
    After that, during the 1990's, more than 100 ethnic 
Mongolian people were arrested because of the promotion of 
Mongolian culture and Mongolian basic human rights.
    Mr. Wolf. Thank you.
    Next will be John Foarde, the Deputy Staff Director on the 
Commission.
    Mr. Foarde. Thanks to all of you for coming and sharing 
your views with us today.
    I would like to address this question to Ms. Shea, if you 
do not mind. A little bit more detail, please, on Mr. Tegexi. 
What was he doing at the time of his detention in 1995? What 
was his job?
    Ms. Shea. He was an instructor at the Inner Mongolian 
University in Mongolian language, I believe.
    Mr. Foarde. All right. So he was a State employee, in the 
sense that he was working in a public university, but teaching 
Mongolian language. Is that correct?
    Ms. Shea. Right. I believe so, yes.
    Mr. Foarde. Let me ask for just one other detail.
    When you write letters to the Chinese officials, do you 
write them in English?
    Ms. Shea. We do, because we do not have anybody that speaks 
Chinese.
    Mr. Foarde. Do you think it would be better to communicate 
with Chinese officials if you were able to either write the 
letters, or have them translated into Chinese?
    Ms. Shea. I imagine it would be.
    Mr. Foarde. Do you think that this has any impact on the 
reason you have not heard a response from the Chinese 
Government or Chinese officials?
    Ms. Shea. I do not know. I really do not know how critical 
that is. We are a small volunteer group. I do not know how we 
would manage that. Whether it would make any difference, I do 
not know. Maybe somebody who is more familiar with the Chinese 
Government would know how critical that is.
    I guess my philosophy has been that we do what we can. Even 
though the person who is getting my letter may not be able to 
catch all the subtleties, I try to underline Mr. Tegexi's name, 
I repeat it often. I try to keep the basic information very 
clear so that my basic point is stated as clearly and simply as 
it can be.
    Mr. Foarde. Just a final detail on the letter writing 
campaign. You said that each letter from the individual 
volunteer is different than other ones, although they all have 
a couple of common themes. I take it that those are themes that 
you, as the group coordinator, help them with.
    Ms. Shea. Right.
    Mr. Foarde. But each letter is not identical.
    Ms. Shea. No. No, not at all.
    Mr. Foarde. I would go to Professor Zhou, please, to ask a 
couple of questions about the proceedings in Hong Kong against 
the Falun Gong practitioners.
    Are the 16 practitioners that are on trial in Hong Kong 
represented by legal counsel?
    Mr. Zhou. Yes, they are. They have their attorneys.
    Mr. Foarde. And the attorneys were chosen by the 
practitioners themselves and not by someone else?
    Mr. Zhou. I believe the attorneys were chosen by 
practitioners themselves. However, the judge was selected by 
the government. Also, there is no jury in the trial. Thus, the 
final judgment was totally up to the judge. It has happened 
that the defense attorney had requested the judge step down, 
citing a clear bias toward the prosecution and an apparent 
hostility toward the defense. But the judge rejected the 
request.
    Mr. Foarde. Let us assume that in these legal proceedings, 
which I take it are public and open to public scrutiny, that if 
these 16 people are convicted of the charges against them, what 
would be the maximum penalty for each individual under Hong 
Kong law, do you know?
    Mr. Zhou. I am not quite sure. I heard it might be up to 2 
years.
    Mr. Foarde. Two years in prison?
    Mr. Zhou. In prison. That was what I heard.
    Mr. Foarde. A question, please, to Mr. Saydahmat. Are 
Uighur language educational materials still published in the 
autonomous region? Are they still available or has publication 
totally ceased? Are all educational materials now in the 
Chinese language?
    Mr. Saydahmat. I think the publication is still there, but 
they have censorship. Since September 11, they have already 
labeled 330 titles of publications as problematic and 
suspicious of the content, and then burned them in public. Then 
they proclaimed that they teach in Chinese because of a 
shortage of books. On the other hand, they are burning them, 
using censorship, and not letting them be published.
    I think they are giving the reason that they are teaching 
Chinese because it improves education and helps people be more 
open to scientific books and information. But their intention 
was to put people on the path to destruction and to restrict 
Uighur language teaching, which is going to end up as a kind of 
cultural genocide.
    There are publications, but they are getting less. I 
believe, if this kind of trend continues and there is going to 
be in the future a shortage, there will be no need to publish 
anything in the Uighur language.
    Mr. Foarde. Thank you all.
    Mr. Wolf. Thank you.
    Next will be Matt Tuchow from the office of Congressman 
Sander Levin.
    Mr. Tuchow. My first question is for Mr. Togochog. I wanted 
to ask you about Inner Mongolia and whether there are any 
issues regarding publication of books in the Mongolian language 
in the Inner Mongolian Autonomous Region.
    Mr. Togochog. Yes. Since 2 years ago, there have been at 
least more than 10 Mongolian books being banned. Those books 
were not really related to political issues. Some of them are 
just regular books just expressing the desire for freedom.
    For example, just last year, two authors, one is called Mr. 
Ulziitogtah, another is called Mr. Unag, published a book 
called ``I Am From Har-Horom.'' Har-Horom was an ancient 
Mongolian capital, now located in the independent country 
Mongolia. In the book they say, ``We are Mongolian. We are real 
Mongolians. We came from Mongolia.'' Now, that is the problem 
for which the Chinese Government banned this book, and the two 
authors were detained for several weeks.
    For example, another magazine which was published in 
Mongolian in 1992 is called Voice of Mongolia. This magazine 
was actually published by Mr. Hada, who is now in prison for 15 
years. That magazine was banned in 1995, after the arrest of 
Mr. Hada and the crackdown on the Southern Mongolian Democratic 
Alliance.
    Mr. Tuchow. Are there any universities in Inner Mongolia?
    Mr. Togochog. Yes. There are the Inner Mongolia University, 
an Inner Mongolian Industrial University, and the Agricultural 
and Animal Husbandry University. But there are few Mongolians 
there. Right now, it is maybe 10 percent that are Mongolian 
students and around 90 percent are Han Chinese students.
    Mr. Tuchow. And are any of the courses taught in the 
Mongolian language there?
    Mr. Togochog. There are some courses. I was a graduate from 
Inner Mongolia University, Mongolian Literature and Linguistic 
Department, which was taught in Mongolian. But we had to learn 
Chinese ancient literature and Chinese contemporary literature. 
That is actually not really every course in Mongolian. It is 
just symbolic.
    Mr. Tuchow. Thank you.
    The next question is to Mr. Saydahmat. I wanted to ask, 
following up again on the situation at Xinjiang University. 
What percentage of the students are Uighur?
    Mr. Saydahmat. I emigrated to the United States in 1988. 
When I was an instructor at the university, there were about 50 
or 55 percent Uighur students and the rest were Chinese.
    Mr. Tuchow. Do you know what the figure is today? Is it 
more Han Chinese?
    Mr. Saydahmat. I assume so, but I do not have that 
information.
    Mr. Tuchow. When you say there is no instruction in the 
Uighur language, is that meaning for all persons, or can 
someone go to the Xinjiang University to study the Uighur 
language?
    Mr. Saydahmat. That is for all the courses.
    Mr. Tuchow. That is it?
    Mr. Saydahmat. Yes. That is all the courses that are taught 
in Uighur. If you are an instructor and you are not doing that, 
then you are fired. I am looking at it this way. Think about a 
university, society, or ethnic group and how long it takes to 
build a university, to have qualified professors, how much 
money you have spent, how many years you had to wait for the 
people to grow up and qualify for the teaching.
    If you ban all the teachers teaching in Uighur and fire all 
of the professors, and one day the world says, rebuild Xinjiang 
University and teach the Uighurs, I do not know how much money 
and how much time it will take.
    Mr. Wolf. In May, I was at Xinjiang University. The student 
population is still about 50 percent Uighur today and 50 
percent Han.
    Next is Holly Vineyard, who works at the U.S. Department of 
Commerce for one of our Commissioners, Under Secretary of 
Commerce Grant Aldonas.
    Ms. Vineyard. Thank you all for coming forward to testify 
today.
    Derek, I was struck by the note of optimism in your 
testimony, especially related to China's accession to the WTO. 
I was wondering if you could share with us any comments or 
attitudes that you picked up while you were in China from your 
fellow students regarding China's entry into the WTO.
    Mr. Wong. Well, I think with the increased globalization of 
China, one of the things that Chinese students are focused on 
is learning English. It's a requirement at universities. It's 
becoming a requirement at secondary, and even primary schools 
now.
    So, a lot of the local students would want to meet 
Americans or other foreign students just to learn English or 
learn other languages. They are curious about how we live back 
home. A lot of them obviously express interest in studying 
abroad. Unfortunately, the opportunity is not always there.
    Ms. Vineyard. I was wondering if anyone else on the panel 
had also encountered attitudes about the WTO as being related 
to bringing about positive change. Mr. Zhou, would you care to 
comment?
    Mr. Zhou. Yes. China's admittance to the WTO should not be 
taken by the Communist leadership as the acquiesce from the 
international community in its human rights abuses, nor should 
it become an excuse for more brutality and suppression. The 
international community should not neglect the human rights and 
rule of law situation in China, including Hong Kong, and should 
urge the Chinese Government to stop the human rights abuses 
against their own citizens.
    Mr. Wolf. Thank you.
    The final questions will come from Alison Pascale, who 
works for Senator Carl Levin.
    Ms. Pascale. Hi. Thank you.
    I wanted to ask a broader question of anyone on the panel 
who might have given some thought to this. What is the most 
effective pressure you think that can come from the United 
States Congress or the United States Government to try to 
effect change within the Government of China?
    We have this Congressional-Executive China Commission that 
was established when we voted to grant China PNTR [permanent 
normal trade relations] as a way to keep pressure on China 
regarding human rights and rule of law, and those types of 
things.
    Right now, we are developing our first report and our 
recommendations and we want to think of the most effective 
things that we can say and do. I wanted to ask the panel for 
their ideas on what would be most useful, such as providing 
resources for more judicial training in China, maintaining 
lists of political prisoners, doing exchanges with our 
Secretary of Labor.
    Have you thought of certain things that you think we can do 
as a Congress or a government that will be effective in getting 
some kind of positive response from the Government in China?
    Mr. Wong. I read a recent report that the Chinese legal 
system is trying to create a more independent judiciary. I 
think that one of the things we can do is send legal experts 
over there to help train them, not only in the creation of 
laws, but also in enforcement.
    Uniform enforcement of laws is one of the biggest 
contradictions in China throughout the local regions where the 
central government may say one thing, but it's not enforced in 
the local regions. I think that having the legal experts in the 
United States, we can send them over there and we can actually 
effect some sort of change.
    Mr. Zhou. May I say something?
    Ms. Pascale. Please.
    Mr. Zhou. I heard a story that was widely reported in 
January 2002, and think it may give people a sense of the 
situation of rule of law in China.
    It was reported that a Hong Kong businessman was sentenced 
to 2 years in prison in China for smuggling several thousand 
Bibles into the mainland. The charge leveled against him was 
that he violated the so-called ``anti-cult law,''--the Chinese 
Government somehow thought that the Bibles he smuggled in were 
cult materials.
    Where did this anti-cult law come from? It was rushed 
through the Chinese legislature in October 1999, 3 months after 
the persecution of Falun Gong started, and was enacted 
specifically to persecute Falun Gong at the time. It was, 
indeed, applied retroactively to justify the persecution. And 
it has later been used to persecute Christian ``house 
churches'' and other faith groups.
    As we can see, the Communist regime can simply make up laws 
to justify their unconstitutional human rights abuses.
    So the fundamental problem is not whether China has law, or 
rule of law. They do. Jiang Zemin is the law in China, and the 
Communist dictatorship is the rule of law. They can simply 
violate the laws, and even make up laws to justify their 
illegal persecution and brutality. Also, they exert pressure 
even on the people and governments from the democratic society 
to let them bend their democratic values and moral principles.
    For example, this pressure even can be felt in the United 
States now, as was mentioned in the U.S. Concurrent Resolution 
188 that was passed unanimously in the House. The resolution 
condemned not only the persecution of Falun Gong in China, but 
also the harassment and threats against United States citizens 
and local government officials who support or practice Falun 
Gong in the United States.
    The fundamental problem is that China's communist regime is 
a dictatorial state that is committed to the suppression of 
freedom of belief; the suppression of freedom of the press; and 
the suppression of legal rights; and it makes liberal use of 
forceful indoctrination, violence, and fear in order to 
terrorize and dominate ordinary citizens. These traits are 
precisely those that identify a terrorist state as such.
    This fundamental problem of lawlessness and state terrorism 
in the PRC must assume much greater importance for U.S. 
policymakers.
    After all, when a leader attacks his own citizens who are 
peaceful, non-violent, and good people, what will that leader 
do on the world stage? Could we possibly expect him to have any 
greater regard for the lives of good citizens in other nations?
    Ms. Pascale. But what would be your recommendations as to 
how to effect change, maybe introducing resolutions that 
condemn those actions?
    Mr. Zhou. I think the U.S. Government should voice more on 
the human rights issues in China, and the voice is definitely 
powerful. It puts pressure on the regime to prevent them from 
doing whatever they want to abuse the rights of their own 
citizens and export the persecution abroad. I believe that the 
voice from the U.S. Congress can help.
    Mr. Wolf. Go ahead. The last word from you, Kathy.
    Ms. Polias. I just wanted to add that this is not to so 
much to do with China itself, but the countries surrounding 
China. There has been a huge problem with neighboring countries 
forcibly returning Uighur and Tibetan refugees--for Tibetans, 
Nepal, and for Uighurs, Kazakstan and Kyrgyzstan.
    We would really like it if the Commission could help 
advance asylum laws in these countries so that these refugees 
are adequately protected, and also look more into the impact of 
the Shanghai Six, which is an alliance that was set up between 
China, Central Asian countries, and Russia to help each other 
crack down on what they consider terrorist movements.
    Mr. Wolf. All right. I would like to thank all of you for 
appearing here today. It has been very useful. As I said, this 
will all become part of the permanent record for the 
Commission.
    For the rest of you, the roundtables that we have been 
holding will begin again in early September. The next open 
forum that we will hold like this will be on December 9.
    So, thank you all very much. Today's session is over.
    [Whereupon, at 3:31 p.m. the roundtable was concluded.]
                            A P P E N D I X

=======================================================================


                          Prepared Statements

                              ----------                              


                Prepared Statement of Enhebatu Togochog

                             august 5, 2002
    Ladies and Gentlemen:
    My name is Enhebatu Togochog and I am a native Mongol from Inner 
Mongolia. I am grateful to the Commission for giving me the opportunity 
to make this presentation about my homeland which I left for political 
reasons in 1998.
    Inner Mongolia is home to 4.5 million indigenous Mongolian people 
and is that part of the historical Greater Mongolia which was ceded to 
China by Stalin following World War II against the wishes of the 
majority of the Mongol leaders in the region. Over the past 50+ years, 
the Chinese government policy encouraging Han Chinese population 
transfer into the region has turned the Mongols into a minority in 
their own lands and the ratio of Han Chinese to Mongols today is 5:1. 
The pattern of repression of the Mongols over this 50 year period has 
been documented elsewhere so I will restrict my comments to the current 
human rights situation. In the addendum of the written report, I have 
provided additional examples and
references. I will bring to the Commission's attention two specific 
cases. The first concerns two individuals, Mr. Hada and Mr. Tegexi and 
the second, the forcible displacement of Mongolian herdsmen from their 
traditional pasturelands.
    The first individual is Mr. Hada who was born in eastern Inner 
Mongolia's Horchin Right Wing Front Banner (banner is a geographical 
designation). In May 1992, Mr. Hada and other Mongolian students and 
intellectuals established the Southern Mongolian Democratic Alliance 
(SMDA), with Mr. Hada as President. The mission of this organization 
was to promote and preserve Mongolian language, history and culture and 
to peacefully find ways to obtain greater autonomous rights for ethnic 
Mongols in the region as guaranteed by the Chinese constitution. In
December 1995, the authorities denounced the Southern Mongolian 
Democratic Alliance as an illegal organization ``engaging in separatist 
activities'' and arrested Mr. Hada along with more than 70 members and 
demonstrators. In December 1996, Mr. Hada was sentenced to 15 years 
jail for ``separating the country and engaging in espionage.'' 
Currently, Mr. Hada is serving his sentence in Inner Mongolia Jail No.4 
at Chifeng City. Hada's wife, Ms. Xinna, and young son Uiles have been 
subject to police intimidation and allowed only limited visitation 
rights. According to Ms. Xinna, because of the hard labor and constant 
torture by the police and inmates, Mr. Hada's health condition is 
extremely poor. Ms. Xinna has also reported that Mr. Hada was beaten by 
inmates with rubber clubs provided by prison guards and on two 
occasions, a gun was held to his head by a prison official who 
threatened to kill him. Equally disturbing, in June 2001, the 
``Mongolian Study Bookstore'' owned by Ms. Xinna was shut down and 
denounced as an ``illegal business'' by the authorities. Mr. Hada's 
wife and young son have been denied the right to pursue a livelihood.
    Mr. Tegexi was born in Horchin Left Wing Rear Banner and was the 
Vice President of the Southern Mongolian Democratic Alliance. He was 
also arrested in
December 1995. In December 1996, Mr. Tegexi was sentenced to 10 years 
jail for ``conspiracy to subvert the government and separate the 
country.'' Currently, Mr. Tegexi's prison situation and health 
condition and even the prison location are unknown. His family members 
and friends have been denied the right to visit him.
    The second case concerns the Chinese government's on-going coercive 
displacement of Mongolian herding populations. The Inner Mongolian 
grasslands were considered to be one of the finest natural grasslands 
in the world, perfectly suited for a herding lifestyle. However, 
according to the ``Inner Mongolia Daily News,'' 81 percent of the 
territory of the Inner Mongolian Autonomous Region has turned to 
desert. The officials do not state that the decertification is 
primarily due to the intensive over-cultivation of the grasslands by 
the millions of Han Chinese farmers, as documented by scientific 
studies, but instead have made the Mongol herders bear the brunt of the 
new policies aimed to end the continuing decertification. The Chinese 
Government has recently adopted a new policy targeting Mongolian 
herding populations under the pretext of ``giving rest to the grassland 
and recovering the eco-system.'' This policy is called ``Environmental 
Immigration'' (Sheng Tai Yi Min in Chinese) whose aim seems to be the 
relocation of the Mongolian herding populations from their native lands 
to overwhelmingly Han Chinese populated agricultural and urban areas. 
Over the past 2 years, at least 160,000 ethnic Mongolians have been 
forcibly relocated from their pasturelands. We see no mention of Han 
Chinese farmers being relocated. The Mongolian herders who have already 
lost their homes, livestock and lands have been relocated with little 
regard to their social and other needs, nor has appropriate 
compensation been made for their losses. These polices are targeted to 
the wrong populations and their discriminatory nature are a violation 
of human and civil rights.
    Members of the Commission, today, Mongols who struggle to maintain 
and promote their distinct culture continue to be subjected to 
harassment and intimidation. Recent cases of individuals arrested for 
distributing 'separatist' literature and another arrest for merely 
wanting to celebrate Chinggis Khan's birthday attest to the continuing 
pattern of repression. In addition, since 1998, at least 5 expatriate 
Inner Mongolians have been refused entry into China and forced to 
return directly from the airports in Beijing and Hong Kong, apparently 
for being associated in one form or another with individuals the 
Chinese government has blacklisted. We also know of 6 cases of 
expatriates (5 of them are United States green card holders and 1 of 
them is even a U.S. citizen) being detained, questioned and monitored 
by the authorities during their visit to Inner Mongolia.
    Let me end by noting that recent releases of Tibetan political 
prisoners indicate that the United States government's dialog with 
China and international pressure in general regarding human rights 
issues can have some positive results. I would like to ask the 
commission to urge the Chinese government to: (1) Release Mr. Hada and 
Mr. Tegexi immediately and restore Ms Xinna's right to open and run her 
bookstore, (2) provide adequate compensation and social services to 
Mongols displaced by the anti-decertification programs and stop the 
upcoming larger displacements, and (3) allow expatriates to return to 
visit their friends and relatives. Finally, I request the commission to 
hold a special hearing devoted to Inner Mongolian human rights issues.
    Thank you!
                                addendum
Details and References on Prominent Human Rights Violation Cases in 
        Inner
        Mongolia
    According to official Chinese data, from 1967-77, 346,000 ethnic 
Mongolians were arrested, tortured, maimed, and sent to jail; 16,222 
Mongolians were killed during the Central Government's ``Unearthing and 
Cleansing'' movement (see attached document ``Chinese Genocide Against 
Mongols'').
    In 1981, a 3-month long Mongolian student's peaceful protest 
against the Central Government's so-called No.28 document authorizing 
large-scale Han Chinese immigration into Inner Mongolia was harshly 
suppressed (see the attached ``Crackdown in Inner Mongolia'' and 
``Continuing Crackdown in Inner Mongolia'' by Human Rights Watch).
    In August 1987, two leaders of the student movement, Mr. Baatar and 
Mr. Bao Hungguang, were sentenced to 8 years jail for driving across 
the border and
attempting to seek political asylum in the Mongolian People's Republic 
(see the attached ``Crackdown in Inner Mongolia'' and ``Continuing 
Crackdown in Inner Mongolia'' by Human Rights Watch).
    In May 1991, Chinese authorities ordered a major crackdown on two 
Mongolian organizations, Ih Ju League National Culture Society and the 
Bayan Nuur League National Modernization Society. Mr. Huchuntegus and 
Mr. Wang Manglai, two leaders of these organizations, and 26 other 
members were arrested (see the attached ``Crackdown in Inner Mongolia'' 
and ``Continuing Crackdown in Inner Mongolia'' by Human Rights Watch). 
Later that year, Mr. Huchuntegus was sentenced to 5 years jail and Mr. 
Wang Manglai was sentenced to 4 years jail. In May 1991, Mr. Ulan 
Shovo, a professor at the University of Inner Mongolia, was arrested 
and later tried in secret and sentenced to 5 years jail for discussing 
the Inner Mongolian human rights situation with a foreigner (see the 
attached ``Crackdown in Inner Mongolia'' and ``Continuing Crackdown in 
Inner Mongolia'' by Human Rights Watch).
    In 1995, Mr. Hada, President of the Southern Mongolian Democratic 
Alliance (SMDA), and Mr. Tegexi, Vice President of the organization, 
were arrested by the authorities along with 70 other members. In 1996, 
Mr. Hada was sentenced to 15 years jail for ``separating the country 
and engaging in espionage,'' and Mr. Tegexi was sentenced to 10 years 
jail for ``conspiracy to subvert the government and separate the 
country'' (see attached document ``Huhhot Municipal Intermediate 
People's Court's verdict on Hada and Tegexi''). More than 10 others 
were sent to labor camp for 3-9 months and many student members were 
expelled from their schools. According to Mr. Hada's wife Xinna, 
because of the hard labor and constant torture by the police and 
inmates, Mr. Hada's health condition is extremely poor. In her 
communication to the United Nations High Commission for Human Rights, 
Ms. Xinna said that Mr. Hada was beaten by inmates with rubber clubs 
provided by prison guards in Inner Mongolia No.4 jail at Chifeng City. 
On two occasions, a gun was allegedly held to his head by a prison 
official who threatened to kill him (see the attached ``The United 
Nations report on Hada''). Recently, Ms. Xinna has also revealed that 
the prison authorities have constantly demanded Mr. Hada sign his name 
on a prepared affidavit stating that Mr. Hada is suffering from serious 
heart disease.
    In 1999, two writers, Mr. Narandalai and Mr. Chingdalai were 
arrested and tortured during 6 months detention. (see the attached 
report `` Mr. Hada's 16 years old son arrested in Huhhot City,'' by 
SMHRIC, July 6, 2001).
    In June 2001, the ``Mongolian Study Bookstore'' and ``Mongolian 
Study Bookstore's Reading Club,'' both owned by Ms. Xinna, wife of Mr. 
Hada, were shut down and the documents about the reading clubs were 
confiscated for ``the activities under the name of social association 
without authorization'' (see the attached official document ``The 
Document of Huhhot City Associations Registration Administration'' and 
``Huhhot City Non-governmental Organization Register Administration 
Social Association Legal Status Checking Form''). According to Ms. 
Xinna more than 200 students who were members of the reading club were 
questioned and intimidated by the police. (personal communication Ms 
Xinna to me, July 15, 2001).
    In May 2001, Mr. Dalai, known as Bao Xiaojun was detained for 
several weeks just for ``trying to celebrate Genghis Khan's Birthday'' 
in western Inner Mongolia (see the attached report `` An Inner 
Mongolian dissident arrested because of the Ginggis Khaan 
celebration,'' by SMHRIC May 18, 2001).
    In June 2001, Mr. Altanbulag, and Badarangui, two musicians, were 
detained for several months for ``distributing separatists' document'' 
which were in fact some open letters published on the Internet 
regarding Inner Mongolian human rights situation (see the attached 
report ``Two Inner Mongolian Musicians Arrested,'' by SMHRIC June 8, 
2001).
    The statement that 81 percent of the whole territory of the Inner 
Mongolian Autonomous Region has become eroded and turned to desert is a 
quote from ``Inner Mongolia Daily News'' newspaper (July 14, 1995). The 
claim that the decertification is due to the intensive over-cultivation 
is taken from ``Grasslands and Grasslands Science in Northern China'' 
(page 70, Washington, D.C. 1992, by the United States Committee on 
Scholarly Communication with the People's Republic of China (CSCPRC)).
    Relocation of the Mongolian herding populations from their native 
lands to overwhelmingly Han Chinese populated agricultural and urban 
areas is documented in the attached document ``Inner Mongolian 
Autonomous Region Shiliin-Gol League's (Xi Lin Guo Le Meng) Provisional 
Regulation on Implementing the Policies of Strategic Encircling and 
Transferring'').
    ``. . . Over the past 2 years, at least 160,000 ethnic Mongolians 
have been forcibly relocated from their pasturelands. We see no mention 
of Han Chinese farmers being relocated . . . .'' (see the attached 
document `` A Complaint Against Chinese Government's Forced Eviction of 
Ethnic Mongolian Herders'' by SMHRIC). ``. . . The Mongolian herders 
who have already lost their homes, livestock and lands have been 
relocated with little regard to their social and other needs, nor has 
appropriate compensation been made for their losses. . . .'' (see the 
attached document ``Bagarin Right Banner (``Ba Lin You Qi'' in Chinese) 
People's Government Document'' and ``A Complaint By Bayan-Khan 
Township's Zuun Khar Mod Gachaa and Khoroochin Gachaa's Herders in 
Bagarin Rights Banner).
    According to the Chinese official news CCTV (China Central 
Television), starting from this year, 125,000 people will be displaced 
from their pasture land in eastern Inner Mongolia's Chifeng area. (see 
the attached document ``Inner Mongolia's Largest Environmental 
Immigration Project Starts'' and its original Chinese version 
``????????????????,'' June 5, 2002, by CCTV and An Hui Online on June 
4, 2002) In December 2001, Mr. Ulziitoghtokh and Mr. Unag, co-authors 
of a book called ``I Am From Khara-Khorin,'' were detained by the 
authorities for expressing their pro-
Mongolian national sentiments through the book (see the attached report 
``Inner Mongolian Poet and Author Persecuted by the Authorities'' by 
Radio Free Asia on December 5, 2002).
    July 2002, Ms. Toli, wife of the President of the Inner Mongolian 
People's Party, an exile organization based in the United States, was 
refused entry at Beijing Airport and deported. Since 1998, at least 7 
expatriate Inner Mongolians have been refused to enter China and forced 
to return directly from the airports in Beijing and Hong Kong or 
detained and questioned after their visits to Inner Mongolia because of 
their personal relationships with some members of Inner Mongolian exile 
organizations (see the report ``Mongolian dissident's wife deported 
from Beijing'' and ``Today's special report'' by Radio Free Asia on 
July 25, 2002); among these 7 Inner Mongolians, 1 is a permanent 
resident of Germany, 5 are United States green card holders and 1 of 
them is a U.S. citizen.
                                 ______
                                 

                  Prepared Statement of Christine Shea

                             august 5, 2002
    Amnesty International Group 284 has been working on the case of an 
Inner Mongolian citizen named Tegexi since 1997. Tegexi is 36 years old 
and has a wife and son. Prior to his arrest, he was employed at the 
Inner Mongolian Bureau of Foreign Affairs. He has a Master's Degree in 
Mongolian.
    Tegexi was arrested on December 12, 1995. His arrest came as a 
result of his involvement with an organization called the Southern 
Mongolian Democratic Alliance. The group's aims were to promote human 
rights, Mongolian culture, and a high degree of autonomy for China's 
minority nationalities. This autonomy is guaranteed in the constitution 
of the People's Republic of China.
    According to reports, an internal document circulated by the 
Chinese Communist Party identified Tegexi and other alleged members of 
the SMDA as ``nationalist separatists'' and called the SMDA a 
``counter-revolutionary organization that is carrying out activities 
aimed at splitting the nation.'' A number of others were arrested at 
about the same time as Tegexi, and protest demonstrations were held at 
the Mongolian Language College following these arrests. Eventually, all 
of those detained were released, with the exception of Tegexi and Hada, 
who was the proprietor of a local bookstore.
    On March 9, 1996, Tegexi and Hada were formally arrested and 
charged with ``conspiring to overthrow the government'' and 
``espionage.'' They were brought to trial and sentenced on December 9, 
1996. Tegexi was sentenced to 10 years in prison and Hada to 15 years 
imprisonment.
    Amnesty International considers Tegexi to be a prisoner of 
conscience, detained solely because of the peaceful exercise of his 
right to freedom of expression and association. He has not used or 
advocated violence. Following Tegexi's arrest and sentencing, Amnesty 
International researchers investigated his case. Once they had
determined that he was a victim of human rights abuses and that he had 
not used or advocated violence, local groups were asked to ``adopt'' 
his case. Group 284 agreed to work on Tegexi's behalf. Local groups in 
the Netherlands, Germany, and Portugal have also adopted Tegexi's case.
    As an Amnesty International group, our concern is not based on 
Tegexi's beliefs or political affiliation. We believe that Tegexi, like 
everyone else, has the right to peacefully express his beliefs and to 
associate with others who share his beliefs. The primary tool that we 
use in advocating for Tegexi is the personal letter. Our group has 
written hundreds of letters to various government officials since 1997. 
Each letter states that Tegexi is imprisoned for the peaceful exercise 
of his basic human rights and asks that he be released from prison 
immediately and unconditionally. Although each letter is unique, these 
two core ideas are always included.
    Our work on Tegexi's behalf has several facets. During our monthly 
meeting, each member of the group writes at least one letter on 
Tegexi's behalf. A typical meeting may be attended by between five and 
ten people. The group's quarterly newsletter also includes information 
on Tegexi's situation and readers are asked to write a
letter. The mailing list includes approximately 100 people. Finally, 
the group occasionally sponsors special events, such as an annual 
Write-a-Thon. Tegexi's case is included in letter writing actions 
during these events also.
    The case coordinator is the one who decides how letter writing will 
be targeted. Amnesty International provides case coordinators with a 
support network of country experts. In addition, e-mail information and 
occasional updates from the London office help the coordinator to 
develop a strategy for each case. In our work on Tegexi's case, we have 
written to both local and national Chinese government officials. We 
have also written to our elected representatives and officials at the 
United States Department of State.
    Letter writing to Chinese government officials is coordinated, so 
that one or two officials are targeted each month. On the national 
level, we have written to President Jiang Zemin on several occasions. 
We have also written to other national officials such as the Vice 
President, the Premier, the Minister of Foreign Affairs, and the 
Minister of Justice. If possible, copies of letters are sent to the 
Chinese Ambassador in Washington, DC, and we have written directly to 
the Ambassador.
    On the local level we have sent letters to the Chairwoman of the 
Government of the Inner Mongolian Region, the Secretary of the Party 
Committee in Inner Mongolia, and the Chief Procurator of the Inner 
Mongolian Region. In addition, we've written to prison officials, such 
as the Director of the Regional Bureau of the Reform-Through-Labor 
Administration, and the directors of the prisons where Tegexi has been 
detained.
    Unfortunately, we have never received a reply to any of our letters 
to Chinese officials. However, prisoners who have been released from 
Chinese prisons have reported that letters to officials did seem to 
have an impact. One former prisoner, Wei Jingsheng, said that he 
believed that the letters sent by Amnesty International groups affected 
his treatment in prison. He also said that although he never saw these 
letters, he did learn of their existence and that ``the mental 
inspiration this gave me greatly surpassed any small improvement in my 
living conditions.''
    Another facet of our work on Tegexi's behalf has involved requests 
for assistance from United States government officials and elected 
representatives. Our group sent letters and e-mails to Presidents 
Clinton and Bush concerning Tegexi. These letters preceded Presidential 
visits to China. We also wrote to Secretary of State Albright before 
she traveled to China. In each of these letters, we requested that 
Tegexi's case be brought up during discussions with Chinese officials.
    We have received replies from the White House and from the State 
Department. In February 2001, Christopher Sibilla, from State 
Department Office of Bilateral Affairs, wrote that they ``have been 
following closely the case of Tegexi,'' and that the State Department 
``views this case as a source of continuing concern.'' However, we do 
not know if President Clinton, President Bush, or Secretary Albright 
discussed Tegexi's case with Chinese officials.
    Group 284 also wrote to our elected representatives asking them to 
adopt Tegexi and write letters on his behalf. We have written to 
Senators Paul Sarbanes and Barbara Mikulski, and Representatives Wayne 
Gilchrest and Steny Hoyer. We
received replies from the offices of the elected officials, and 
although they were sympathetic to Tegexi's case, none were willing to 
write letters on his behalf. Senator Sarbanes forwarded our letter to 
the State Department, as did Senator Mikulski. Senator Mikulski also 
sent a copy of our letter to the Chinese Ambassador.
    During the past year, we have sent occasional letters and cards to 
Tegexi in prison. We have never received a reply and we do not know if 
he receives the letters. We send simple messages of hope and support. 
Our hope is that, even if the letters are not delivered to Tegexi, they 
will let prison officials know that he has not been forgotten.
    This message, that Tegexi has not been forgotten, is the essence of 
our work. Despite the unresponsiveness of Chinese officials, Group 284 
has continued to write to them consistently for the past 5 years. We 
hope that our work will help Tegexi to be released, but we also hope 
that the consistent pressure will prevent others from suffering as 
Tegexi has suffered.
                                 ______
                                 

                 Prepared Statement of Sokrat Saydahmat

                             august 5, 2002
    As the representative of the Uyghur American Association, I am here 
to raise two troubling issues that indicate trends away from civil 
society and toward the cultural genocide of the people of East 
Turkistan, a.k.a. Xinjiang Uyghur Autonomous Region. Despite the 
constitution of the Peoples Republic of China and laws that are 
supposed to guarantee and protect the non-Chinese peoples, new 
regulations have been enacted that ignore their rights and place the 
Uyghur people on a path to
oblivion.
    The first regulation of concern is the recent change to Xinjiang 
University that prohibits the Uyghur language in the classroom. 
Identified as needed for improving the standard of education, the 
Chinese government has extinguished the source of higher education the 
language of a civilization that stretches back to the 9th century. The 
Uyghur language and script have been used for over a thousand years and 
has documented religious texts on Buddhism, Christianity and Islam and 
the rich culture of Central Asian Turkic peoples. For the Chinese 
government to ban higher level instruction and thought is insulting to 
the Uyghur people on the grounds of 'improving education.' Such a 
policy change should be seen for the malevolent act it represents, the 
beginning of the purposeful destruction of Uyghur language and culture.
    The second policy maintains the same goal, banning and burning 
Uyghur language books that disagree with today's Chinese government 
opinion. A total of 330 titles have been deemed problematic and 
witnesses in Kashgar have watched while thousands of literary and 
scientific works were burned this past June (2002). These books have 
such titles as, ``Ancient Uyghur Craftsmanship,'' and ``A Brief History 
of the Huns and Ancient Literature.'' Although the Chinese government 
once approved of the publication of these works, they are now deemed 
too controversial to read. We believe that the change in policy 
represents another facet of the purposeful destruction of Uyghur 
language and culture. It should also be noted that another reason given 
by the Chinese government authorities for ending Uyghur language 
instruction in Xinjiang University was a supposed lack of textbooks. 
How can someone ban and publicly burn books on one hand while declaring 
the cessation of Uyghur language instruction based on the lack of 
books?
    We have raised concrete examples reported in the media that 
demonstrate that the Chinese government violates human and civil rights 
guaranteed under various United Nation instruments as well as the laws 
of the Peoples Republic of China. We would ask for an open, unfettered 
referendum to determine the future of the people of East Turkistan, by 
the people of East Turkistan.
    The Uyghur people, language and culture are under attack and the 
Uyghur people must watch helplessly and alone as the Chinese government 
authorities continues the devastation.
    We implore the United States government to put teeth into the 
United Nation Commission on Human Rights in Geneva. Please staff and 
fund the effort to raise issues at least as much as the Chinese 
government spends to table it.
    Twelve million Uyghur people need a friend. We also implore the 
United States government to create and fund a position of Special 
Coordinator for Human Rights in East Turkistan, much as been created to 
assist the Tibetan people.
    There are many problems that need to be solved in East Turkistan, 
but we hope that the visibility produced by these two suggestions will 
cause more of the problems to be solved and for conditions to improve 
for our people.
    Thank you for your time and attention to this important matter.
                                 ______
                                 

                    Prepared Statement of Derek Wong

                             august 5, 2002
    Thank you for the opportunity to speak at this open forum. My name 
is Derek Wong, and I am a student at the University of Pennsylvania. I 
speak today not as an expert on China or U.S.-China relations, but as a 
Chinese-American who has had first-hand experience with the Chinese 
educational system. The purpose of my presentation is to advocate 
further educational and academic exchanges between the two countries, 
and to discuss the ways in which these exchanges can contribute to the 
promotion of human rights and the rule of law in China.
    During the fall of 2001, I studied for a semester at the 
prestigious Tsinghua University in Beijing. My program was unique in 
that I was able to enroll in classes with Chinese students, as opposed 
to the majority of study-abroad programs in China, which limit foreign 
students to language classes and ``island programs,'' often taught in 
English. While I took a variety of humanities courses in history, 
international relations, law, and moral ideologies, the underlying 
premise of Marxism was evident throughout each of the courses, although 
in varying degree.
    What soon became apparent to me was the lack of understanding some 
Chinese students and professors have of the United States. To be fair, 
the same could be said of their American counterparts. Some of my 
Chinese professors had studied or taught in the United States, and it 
was evident in their teaching. Other professors lectured with an 
obvious bias against the United States and Western society in general--
it was clear that they had little, and many times an incorrect, 
understanding of our country.
    In an informal poll I conducted of students at three top 
universities in Beijing, the majority of respondents said they based 
their opinions of the United States primarily on reports from the 
Chinese news media. Most of the students admired American affluence and 
lifestyle, and indicated that given the opportunity they would want to 
study in the United States Yet they were also highly critical of 
President George W. Bush and his policies toward China and Taiwan, 
accusing the U.S. Government of being hegemonic and overly aggressive 
in its foreign policy.
    This dualistic attitude was illustrated in the Chinese reaction to 
the events of September 11th. Immediately after the attacks, there was 
an air of shock, as well as regret for those who died in Washington and 
New York, some of whom were Chinese citizens. Chinese President Jiang 
Zemin was one of the first world leaders to offer his condolences and 
condemn the terrorist attacks. Yet in the days and weeks that followed, 
each action by the Bush administration was criticized by my professors 
and fellow classmates--not to mention the media--as a subtle mistrust 
of the United States became evident. During one lecture, a number of 
students applauded as a photograph was shown of a plane crashing into 
one of the twin towers. I was stunned as I realized that the sentiment 
among some students was that the United States got what it deserved.
    With China's accession to the World Trade Organization, change is 
on the horizon. Use of the English language in all parts of society is 
becoming increasingly important. Additionally, Beijingers are eager to 
learn simple English phrases in anticipation of the 2008 Summer Olympic 
Games. Students at top universities in China are required to study 
English or another foreign language, a requirement which is spreading 
to secondary, and even some primary schools. Many wealthier Chinese 
families hire English tutors for their children, or enroll them in 
language learning centers.
    The increasing globalization of China presents a golden opportunity 
for the United States to play an active part in promoting human rights 
and the rule of law in China. Many Americans possess skills and 
expertise in law, language training, and other areas that are in high 
demand in China. When Chinese students and academics come into contact 
with their American counterparts, there is an exchange of information, 
ideas, and beliefs. The result of these exchanges was evident by 
listening to the varying lectures of Chinese Professors who had lived 
in the United States compared to those who had not. During my semester 
in China, I had a number of candid discussions with classmates about 
Sino-American relations and
so-called ``Western values.'' These conversations were mutually 
beneficial in helping us gain an understanding of each other's culture. 
I got the sense that some of my classmates did not give into the 
Marxist ideals that are the basis for education in China, and had an 
interest in learning about other ideologies, including Western systems 
of democracy.
    Several faith-based organizations are already taking advantage of 
China's need for English language instructors. Although they do not use 
religious or political materials in their classrooms, the personal 
relationships they forge with students are every bit as effective in 
promoting values we as Americans hold dear. While U.S. embassies and 
consulates in China issue thousands of student visas each year, many 
more are turned down for various reasons. Clearly we cannot accept all 
Chinese students who wish to study in the United States, but we can 
bring American education to China, and with it, our understanding of 
human rights, liberties, and freedoms. One such example is the Hopkins-
Nanjing Center for Chinese American Studies, which is jointly 
administered by Johns Hopkins School of Advanced International Studies 
and Nanjing University. It offers classes in Chinese for international 
students, and in English for Chinese students in a variety of social 
sciences, such a history, economics and Sino-American relations. 
Additionally, American students are typically paired with a Chinese 
roommate, allowing for daily
exchange of ideas and opinions between these students.
    The United States can also help advance the rule of law in China by 
contributing to WTO-related legal training. Christian Murck of the 
American Chamber of Commerce in China testified before this Commission 
earlier in the year, and said, ``the American government, though it 
takes an active public role of advocating improvements in the rule of 
law in China, has been conspicuous by its absence.'' He called our 
government's record ``meager . . . compared with that of the European 
Union, individual European countries and American private sector 
donors.'' Increased assistance on our part would also be seen as a sign 
that the United States welcomes China's increased role in the 
international community.
    We need to send more students, teachers, academics, and legal 
experts to China if we are to understand the complexity of its culture, 
as well as the implications for future bilateral ties. A dramatic 
increase in the availability of federally funded programs or grants 
would certainly provide additional incentive for such exchanges. I urge 
this Commission to promote programs that encourage academic interaction 
between the United States and China, not only for the benefit of the 
1.3 billion
people in China, but also for students like me, who aspire to be 
shapers of Sino-American relations.

                    Prepared Statement of Shiyu Zhou

                             august 5, 2002

      Human Rights and Rule of Law in China . . . or Lack Thereof

    Mr. Chairman, members of this Commission, ladies and gentlemen:
    Thank you for giving me this opportunity to speak on the subject of 
human rights and rule of law in the People's Republic of China.
    Looking back at the 50 year history of communist China, what we see 
is pitifully not a history of rule of law, but a history of rule of 
man, and one that neglects human rights. From the Cultural Revolution 
of the 1960s and 1970s, to the Tiananmen Square Massacre in 1989, to 
the brutal suppression of Falun Gong and other faith groups today, one 
traces a bloody history in which the ruling, communist regime has 
carried out a program of State terrorism against its own culture and 
citizens.
    In what follows, I would like to briefly discuss the current State 
of human rights and the rule of law in China from three different 
perspectives. I will use the ongoing persecution of Falun Gong as an 
illustration. There are, of course, other examples of persecution 
campaigns in China at present, including the official suppression of 
Tibetan Buddhists and Christian ``house churches.'' The government's 
campaign against Falun Gong, though, distinguishes itself by virtue of 
the sheer number of persons affected and the intensity of the campaign.
                 the first perspective: rule of outlaw
    The first perspective to consider is that the communist authorities 
in Beijing flatly ignore and violate existing laws in order to deprive 
Falun Gong practitioners and other Chinese citizens of their human 
rights.
    In the Constitution of the People's Republic of China, Articles 33 
through 50 explicitly State the ``fundamental rights'' of Chinese 
citizens, which include freedom of speech, assembly, association, and 
religious belief. However, numerous reports from human rights groups 
around the world and international media reveal exactly the opposite. 
Most notably, in the government's campaign against Falun Gong, the 
rights of adherents which are supposedly set forth in every single one 
of these Articles have been violated, and in many cases violated 
flagrantly. Perpetrators of these abuses, such as police and prison 
wardens, have been promoted for their brutality; outside investigations 
are blocked; and authorities insist across the board that no 
transgressions have occurred.
    The primary mechanism used by Jiang Zemin to persecute Falun Gong 
is a notorious and unconstitutional organization called the ``6-10 
Office,'' which spans multiple levels of government, having absolute 
power over each level of administration in the Party as well as over 
the political and judiciary branches. Since its establishment in June 
1999, the 6-10 Office has become nothing short of China's modern day 
equivalent to the Gestapo, orchestrating a 3-year long, horrific 
persecution against Falun Gong and its practitioners that has resulted 
in hundreds of thousands of cases of arbitrary detention, false 
imprisonment, defamation, kidnapping, torture, sexual and psychiatric 
abuse, disappearance, and murder.
    But the terror of the 6-10 Office is experienced not only by 
practitioners of the Falun Gong, but by virtually the entire population 
of China. The office incites hatred against Falun Gong through imposing 
direct pressure on even those who have no connection to Falun Gong. 
Examples of this include, in many regions, children in grade school 
being forced to sign statements denouncing Falun Gong at the threat of 
expulsion; adults being forced to sign similar statements or lose their 
jobs or pensions; and police, too, being threatened with loss of 
salary, residential privileges, or even employment should they not 
carry out the orders of the 6-10 Office; neighbors and co-workers are 
forced, via threat, to monitor those around them who might practice 
Falun Gong and report on them. The constitutional rights of virtually 
everyone in Chinese society have been violated by this government-
sanctioned and official terrorist organization.
               the second perspective: rule of bogus law
    The second perspective is that of arbitrarily contrived laws. The 
communist authorities in Beijing can simply make up so-called ``laws'' 
to justify their unconstitutional human rights abuses where there is 
no, and should never be any, justification. The law is re-engineered to 
suit the political needs of the day.
    In January of 2002, a number of media reported the story of a Hong 
Kong businessman who was sentenced to 2 years in prison in China for 
smuggling thousands of Bibles into Mainland China. The charge leveled 
against him was that he violated a so-called ``anti-cult'' law; Chinese 
authorities considered the Bibles he smuggled in ``cult materials.'' So 
where did this ``anti-cult'' law come from? It was rushed through the 
Chinese legislature on October 30, 1999, 5 days after president Jiang 
Zemin was quoted in a French newspaper labeling Falun Gong a ``cult,'' 
and 3 months after the government launched its suppression of Falun 
Gong. The ``law'' was made specifically to aid the persecution of Falun 
Gong at that time. Chinese authorities applied this so-called law 
retroactively to justify and heighten their violent persecution of 
Falun Gong. Sadly, this ``law'' was later used to persecute Christian 
``house churches'' and other faith groups.
    Laws should serve the purpose of protecting justice and freedom. 
But laws in Jiang Zemin's hands only become a suppressive tool for 
maintaining political power.
                  the third perspective: rule by fiat
    It is nothing new that Mainland authorities would manufacture bogus 
so-called ``laws'' to justify harsh, repressive political measures, or 
even to apply such laws retroactively to punish persons and groups for 
past actions and affiliations. But what is new is the appearance of 
such tactics in Hong Kong, a region that Beijing promised would retain 
its freewheeling, open way of life under a principle of ``one country, 
two systems'' for at least 50 years; that is, 50 years from the time it 
first became a part of the PRC in 1997.
    Now after only 5 years, this promise is waning, or even crumbling, 
at an alarming pace.
    The past year has seen constant debate among Hong Kong's ruling 
elite, led by Chief Executive Tung Chee-hwa, over the adoption of so-
called ``anti-cult'' and ``anti-subversion'' laws. These laws, analysts 
and observers note, would give legal grounds for Hong Kong to ban and 
suppress religious and other groups deemed unfavorable by Beijing 
authorities, the most notable example being the Falun Gong.
    As we speak, a second matter in Hong Kong is of perhaps even 
greater immediate concern. Sixteen practitioners of the Falun Gong were 
recently put through a show-trial, officially labeled a ``criminal 
trial,'' for allegedly disrupting social order this past March when 
they supposedly ``obstructed the sidewalk'' by meditating and are 
accused of ``attacking the police.'' The location was outside the 
Chinese (that is, PRC) Liaison Office of Hong Kong. Of the 16, fully 4 
are Swiss nationals. The group was forcefully arrested without any 
warrant by Hong Kong police. However, eyewitness reports and video 
documentation reveal that it was actually the police who obstructed the 
sidewalk and attacked persons. The footage, which is available online, 
shows the peaceful meditators in two short, orderly rows, taking up a 
seven-square-meter spot in a 140-square-meter open area, and then being 
overwhelmed by throngs of police, probably several dozen, and violently 
choked, gouged in the eyes, and jabbed in their pressure points as they 
are removed to police vans.
    What is significant is that the arrests and removal took place 
reportedly under pressure from the Liaison Office; the office was irate 
that Hong Kong citizens and foreign nationals would demonstrate outside 
its premises against human rights abuses in the PRC; irate, that is, 
that they would dare use Hong Kong's constitutionally enshrined 
freedoms of assembly and speech to embarrass the ruling Beijing regime.
    The trial ended on August 15, 2002, with all 16 Falun Gong 
practitioners being ``convicted'' and given fines. Many analysts agreed 
that the trial was partial, politically motivated, and a foregone 
conclusion. The defendants are now in the process of filing an appeal 
against the conviction.
    The significance of this show trial cannot be understated. CNN 
recently reported that the trial has ``raised concerns that the 'one 
country, two systems' policy is eroding, and that Hong Kong is 
beginning to yield to pressures from the mainland.'' What astute 
observers realize is that pressure from Jiang Zemin to restrict Falun 
Gong in Hong Kong is jeopardizing a once-proud legacy of freedoms and 
just legal system. The trial was very much a litmus test, a touchstone, 
if you will, for democracy and rule of law in Hong Kong. The very 
existence of this trial marks the negation of rule of law in the Hong 
Kong SAR, and the beginning of the end. Legal analysts say that the 
trial never should have happened to begin with. It marks the arrival of 
``rule of Jiang'' and the departure of rule of law. This is something 
Hong Kong cannot afford, and this is something the free world and 
America cannot afford.
    I would like to suggest that this situation be taken much more 
seriously. We have already seen in the past year and a half on two 
occasions scores of Americans and citizens of other nations being 
barred from entering Hong Kong due to their beliefs (they practiced 
Falun Gong); we learned, to our appall, that they were on a blacklist, 
presumably assembled by the PRC. Now we see a show trial being used to 
discredit a peaceful group of meditators and, second, to justify harsh, 
repressive legislation that is in the works and that will appease Jiang 
and the Beijing authorities. This is rule by fiat, or rule by Jiang, 
manifesting in Hong Kong.
                           concluding remarks
    The fundamental problem is not whether the P.R.C. has ``law'' or 
``rule of law.'' It does have law, only ruler Jiang Zemin is ``the 
law'' in China, and the communist dictatorship is the ``rule of law.'' 
The dictatorship is more than willing to override existing statutes, or 
even to manufacture new so-called ``laws'' as fitting, to serve its 
political purposes or maintain power. A crude veneer of ``law'' is used 
to justify and veil what is by any account illegal and criminal 
behavior. And now, as we see in the case of Hong Kong and other 
nations, such as Iceland, most recently, Jiang and his leadership can 
even pressure governments and peoples of democratic societies to 
compromise their democratic values, institutions, and practices. This 
pressure has even been felt in the United States, as described in U.S. 
House Concurrent Resolution 188, passed just a few weeks ago by 
unanimous vote; the resolution goes beyond condemning the Jiang Zemin 
regime's persecution of Falun Gong in China to warning the regime 
against its attempts to bring its hate campaign to the U.S., where 
American citizens and local government officials who support or 
practice Falun Gong have been targeted by threat, harassment, and even 
violence.
    The fundamental problem is that China's communist regime is a 
dictatorial State that is committed to the suppression of freedom of 
belief; the suppression of freedom of the press; and the suppression of 
legal rights, such as due process; and it makes liberal use of forceful 
indoctrination, violence and fear in order to terrorize and dominate 
ordinary citizens. These traits, as you will recognize, are precisely 
those that identify a terrorist State as such.
    I would like to suggest, in closing, that this fundamental problem 
of lawlessness and State terrorism in the P.R.C. must assume much 
greater importance for U.S. policymakers. To not do so, to overlook the 
problematic nature and ruling of the Beijing regime, is to build Sino-
U.S. relations on shaky, faulty grounds. There are many things we can 
turn a blind eye to, but wishful thinking cannot be expected to bring 
about any real resolution or improvements on this front. Instead, it 
only allows the problem to fester, and worse yet, with our silence we 
embolden that very same leadership; silence, to the Jiang Zemin regime, 
is acquiescence. This is a grave mistake, I believe. We need look no 
further than the lessons of 9-11 to realize what evil can brew when it 
is left unchecked or overlooked.
    After all, when a leader attacks his own citizens who are peaceful, 
non-violent, and good people, what will that leader do on the world 
stage? Could we possibly expect him to have any greater regard for the 
lives of good citizens in other nations?
    Thank you for your attention.
                       Submission for the Record

                              ----------                              


                   Prepared Statement of Raj Purohit,

                 the Lawyers Committee for Human Rights

                             august 5, 2002
                              introduction
    The Lawyers Committee for Human Rights (LCHR) is an independent 
non-governmental human rights organization. Our work is focused on 
holding governments
accountable to the international standards of human rights and on 
developing stronger models of corporate accountability in the global 
market place.
    The Congressional-Executive Commission on China (CECC) is charged 
with a mandate to monitor human rights and the development of the rule 
of law in China, and to submit an annual report to the President and 
the Congress. As the Commission prepares to write its first annual 
report, the Lawyers Committee urges that the Commission maintain a 
strong focus on its human rights agenda, and, in particular, on the 
implications of economic liberalization and WTO membership for Chinese 
workers. LCHR urges the Commission to use its voice to influence 
Congress and the Administration to put concern for Chinese workers hurt 
by the liberalization of China's economic and trade policies at the 
forefront of the United States' trade relationship with China.
     impact of economic and trade liberalization on chinese workers
    Chinese workers protesting labor conditions, corrupt management of 
wages and pension plans, and the loss of thousands of State enterprise 
jobs, are frequently detained and their cause ignored by the Chinese 
government. The well-known case of the Daqing oil workers at the 
Liaoyang Ferroalloy Factory, where protest leaders were arrested, is 
only one example of the Chinese government's repressive response to 
workers' allegations of management corruption in private companies or 
in state-run enterprises.\1\ In fact, Amnesty International noted 
recently that many worker protests are unreported by local governments 
attempting to hide evidence of unrest and instability.\2\ According to 
a Lawyers Committee interview with Han Dongfang, a Chinese labor 
advocate, the frustration of workers with the dire employment 
conditions in China is rapidly reaching a boiling point:
---------------------------------------------------------------------------
    \1\ See Chinese Labour Bulletin, Updates on Workers' Protests in 
Liaoyang and Daqing, July 25, 2002 at http://iso.china-labour.org.hk/
iso/news--item.adp?news--id=2038; Chinese Labour Bulletin, 2000 Brick 
and Tile Workers Take Over Factory for Pension Benefits in Inner 
Mongolia, July 19, 2002 at http://iso.china-labour.org.hk/iso/news--
item.adp?news--id=2006.
    \2\ Amnesty International, Workers want to eat--workers want a job, 
April 30, 2002 at http://web.amnesty.org/ai.nsf/Index/
ASA170222002?OpenDocument&of=COUNTRIES/CHINA.

          ``The discontent I hear in the workers' voices is like a 
        ticking time bomb. The first time I heard someone say, 
        ``There's no way out, this country needs an all-or-nothing 
        revolution,'' I felt excited. But Chinese workers need to be 
        aware of the implications of such a revolution. Each time I 
        hear this kind of talk, I ask people--the price of revolution 
        is high, but who is going to pay most dearly for it? Will it be 
        the rich officials who can fly out of the country as soon as 
        they feel the need to run? Or will it be the hard-up workers?'' 
        \3\
---------------------------------------------------------------------------
    \3\ Lawyers Committee for Human Rights, Interview with Han 
Dongfang, Chinese Labor Advocate, at http://www.lchr.org/workers--
rights/wr--china/wr--china--1.htm (last visited July 30, 2002).

    Although workers have attempted to address their complaints through 
legal channels, there are few options available in China's legal 
system. A recent New York Times article described how Chinese workers 
sued their employer, the Shenzhen Jianye Construction Company, for lost 
pension plans. Eight percent of workers' salaries were automatically 
deducted from each paycheck for the plan, but when retiring workers 
attempted to claim their pensions, they were informed the money was not 
available. The Shenzhen workers' lawsuit in the Communist Party-
controlled judicial system failed to remedy the construction company's 
abuses of the pension scheme, further frustrating workers and 
demonstrating the serious limitations of legal remedies for China's 
workers.\4\ Despite a revised trade union law, China's workers still 
lack the right to organize independent trade unions, cannot strike to 
protest working conditions, and cannot vote out local officials that 
support private or government-owned businesses.\5\
---------------------------------------------------------------------------
    \4\ Philip Pan, Chinese workers' rights stop at courtroom door, New 
York Times, June 28, 2002, at A01.
    \5\ Id.
---------------------------------------------------------------------------
    The reality of China's accession to the WTO involves far more than 
expanding access to huge, untapped markets. China is the world's 
leading exporter of apparel and textiles, and the majority of global 
apparel production will likely move to China in the near future. The 
expiration of export-regulating quota agreements in 2005 will further 
this growth.\6\ However, the benefits of economic liberalization are 
not realized by many of China's workers, who suffer under working 
conditions that include forced labor, child labor, excessive overtime, 
substandard wages, and exposure to hazardous substances. China has 
labor laws governing these conditions, but those laws are rarely 
enforced and workers lack legal channels through which they can reform 
working conditions.\7\
---------------------------------------------------------------------------
    \6\ Lawyers Committee for Human Rights, Workers Rights in China, at 
http://www.lchr.org/workers--rights/wr--china/wr--china.htm (last 
visited July 30, 2002).
    \7\ Id.
---------------------------------------------------------------------------
    Although China has only ratified two of the International Labor 
Organization's fundamental conventions,\8\ it has made significant 
international commitments to the rights of its workers. China's 
membership in the ILO binds it to the Declaration on Fundamental 
Principles and Rights at Work\9\ and commits China to respect freedom 
of association, the right to collective bargaining, and the elimination 
of forced labor, child labor, and employment discrimination.\10\ 
Additionally, the election of China's All-China Federation of Trade 
Unions (ACFTU) to the Governing Body of the ILO in June 2002\11\ offers 
an opportunity for the international community--including the United 
States--to remind China of its international obligations toward workers 
rights.
---------------------------------------------------------------------------
    \8\ C. 100, Equal Remuneration Convention, 1951 and C. 138, Minimum 
Age Convention, 1973 (See International Labor Organization, 
Ratification of the ILO Fundamental Conventions, at http://
webfusion.ilo.org/public/db/standards/normes/appl/appl-
ratif8conv.cfm?Lang=EN.)
    \9\ International Labor Organization, Declaration on Fundamental 
Principles and Rights at Work, available at http://www.ilo.org/public/
english/standards/decl/declaration/text/.
    \10\  Id.
    \11\ International Labor Organization, Governing Body 284th 
Session, June 2002, at http://www.ilo.org/public/english/standards/
relm/gb/docs/gb284/index.htm.
---------------------------------------------------------------------------
                            recommendations
    The Lawyers Committee recommends that the Commission focus on 
workers rights in its evaluation of China's WTO membership and the 
liberalization of China's markets. The Commission should consider the 
Ambassadorial role of American companies in China and work to ensure 
that those companies respect the letter of China's labor laws when 
producing goods in China. Providing humane working
conditions and basic human freedoms for Chinese workers is not only 
guaranteed by international law; it is also a priority for American 
consumers and investors, who are increasingly concerned with how their 
goods are produced.\12\ Although ensuring equitable trade access for 
American companies to China's vast markets is of obvious importance, 
especially in a time of recession, in its first annual report the 
Commission should prioritize the preservation of workers rights in 
China's trade liberalization efforts.
---------------------------------------------------------------------------
    \12\ ``Respondents said they would be more likely to invest in a 
company that invested in companies that didn't harm the environment (70 
percent), had a good record of hiring and promoting women (63 percent) 
and minorities (62 percent), and are not involved in sweatshop labor 
practices(57 percent).'' (See Yankelovich Partners, 1999 study, at 
Calvert Group, Ltd. website, ``Know What You Own''
---------------------------------------------------------------------------

                                   - 

</pre></body></html>
